C@OCKLE

Legal Briefs

Est. 1923,

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

FRED LOHR FOUSE AND JOLENE K. FOUSE,
Petitioners,
v.
SARATOGA PARTNERS L.P.,
AND
HUNTINGDON COUNTY TAX CLAIMS BUREAU,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(b), | certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5178 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of February, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-Slate of Nebraska d / J Chk
RENEE J. GOSS 9 7 .
My Comm. Exp. September 5, 2023

     

 

Notary Public Affiant 40483
